o.

mL

r IN THE
SUPREME COURT OF THE UNITED STATES

JANE DOE, Petitioner
VS.

FI LED
DEC 0 7 2020

BEN CARSON, as Executive Director
United States Department of Housing and Urban Development;
GARY HEIDEL, as Acting Executive Director
Michigan State Housing Development Authority; and
THE UNITED STATES, Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO
The Sixth Circuit

Petition for a Writ of Certiorari

Jane Doe
P.O. Box 2893
Denver, CO 80201
239.537.5966

IV.

QUESTIONS PRESENTED

1. Should mentally ill individuals be automatically granted name
redaction in administrative and court cases, so that they will be
able to vindicate statutory, constitutional and other rights
violations without first litigating anonymity?
2. Should it be required that any courts making anonymity
determinations be required to consider statutory, constitutional
and case law on the subject matter in issue?
3. Should consideration of the government as the defendant render
anonymity more desirable to expose wrongdoing and keep govt
officials from using publicly exposing mental illness to dissuade
pursuit of rights?
4. Should it be required that any court considering the issue of
anonymity, factor the risks to a) the ability of a person to work
again if they become well, b) rejoining the community and c) how a
decision potentially could impact their mental health?

V.

LIST OF PARTIES AND RELATED CASES

The names of all parties appear in the caption of the case on the cover
page.

There are no related cases.

TABLE OF CONTENTS
Page #s
IX.

OPINIONS BELOW

A.

Circuit court opinion

App. A

B.

District court opinion

App. B

C.

Magistrate’s report and recommendation

App. C

D.

Denial of en banc review

App. D

X.

JURISDICTION

A.

Timeliness

1

B.

Statutory authority

2

C.

A Justiciable controversy

2

XI.

CONSTITUTIONAL AND STATUTORY PROVISIONS

A.

The United States Constitution

1.

First Amendment

4

2.

Fifth Amendment

4

3.

Fourteenth Amendment

5

B.

Relevant Statutes

1.

The Americans with Disabilities Act, 42 U.S.C. 12101 et seq.
Findings and Purpose

42 U.S.C. 12101
(a)

Findings

5

(b)

Purpose

6

42 U.S.C. 12102

Definition of disability

7

& App. E
42 U.S.C. 12131

Definitions

7

42 U.S.C. 12132 .

Discrimination

7

42 U.S.C. 12133

Enforcement

8

29 U.S.C. 794a

Remedies and attorney fees

8

(a)(2) Remedies
(b)

& App. F

Attorney fees

42 U.S.C. 12201

Construction

8

42 U.S.C. 12202

State immunity

9

42 U.S.C. 12203

Prohibition against retaliation and coercion 9

42 U.S.C. 12205

Attorney fees

10

28 CFR 35.105

Self-evaluation

10

2.

Section 504 of the Rehabilitation Act of 1973

29 U.S.C. 794

11

Non-discrimination under federal grants and programs

29 U.S.C. 794a Remedies and attorney fees
3.

42 U.S.C. 1983 Civil Action for the Deprivation of Rights

11

4.
42 U.S.C. 10801 Protection and Advocacy for Individuals with
Mental Illness
11

5.

5 U.S.C. 552

The Freedom of Information Act (FOIA)

12

5 U.S.C. 552(b) Exclusions from FOIA requirements include^

(3) Privacy protection derived from other statutes, here, Health
Insurance Portability and Accountability Act of 1996 (HIPAA)
12

(6) Personnel and medical files and similar files the disclosure of
which would constitute a clearly unwarranted invasion of personal
privacy
13

C.

Federal Rules of Civil Procedure (FRCP)

1.

Rule 5.2(e)(1)

Privacy protection for filings made in the court

(e)

Protective orders

(l)

Require redaction of additional information

13

2.

Rule 10

Form of pleadings

13

3.

Rule 17

Plaintiff & Def.l Capacity! Public officers

13

(a)

Real party in interest

(3)

Joinder of the real party in interest

& App. H

Notes of Advisory Committee on Rules—1966 Amendment

D.

Convention on the Rights of Persons with Disabilities (CRPD)14
Map of signatures and ratifications of CRPD

XII.

STATEMENT OF THE CASE

XIII.

REASONS FOR GRANTING THE PETITION

A.

14

MENTAL ILLNESS AND DISABILITIES ARE PRIVATE ISSUES FOR

WHICH THERE IS GREAT PUBLIC INTEREST IN SEEING STATUTORY AND
CONSTITUTIONAL RIGHTS PROTECTED, BUT LITTLE PUBLIC INTEREST IN
THE IDENTITY OF LITIGANTS.

B.

17

THE GOVERNMENT AS THE DEFENDANT MATTERS BECAUSE THERE

IS A STRONG PUBLIC POLICY TO EXPOSE WRONGDOING BY GOVERNMENT
ENTITIES BY BRINGING THEIR ACTIVITIES, POLICIES, AND PROCEDURES
TO LIGHT.

C.

26

A DOE LITIGANT IS THE REAL PARTY IN INTEREST WITH THE

SUBSTANTIVE RIGHT TO BRING SUIT, AND SO LONG AS THEY ARE
IDENTIFIED TO DEFENDANTS OR THE COURT, RES JUDICATA IS
ASSURED.

D.

33

NEGATIVE ANONYMITY DECISIONS CAN CAUSE PERMANENT DAMAGE, OR

FORCE INDIVIDUALS TO KEEP FROM PURSUING VALID CLAIMS IN COURT. 37

XIV. CONCLUSION

40

TABLE OF AUTHORITIES

CASES

Borucki v. Ryan, 827 F.2d 836 (1st Cir. 1987)

25

Caesar v. Mountanos, 542 F.2d 1064 (9th Cir. 1976)

26

Cleburne v. Cleburne Living Center, Inc., 473 U.S. 432 (1985)

17

Detroit Free Press Inc. v. U.S. Dept of Justice, 829 F.3d 478 (6th Cir.
2016)
39
Doe v. Blue Cross Blue Shield of WI, 112 F.3d 869 (7th Cir. 1997)

21

Doe v. Borough of Morrisville, 130 F.R.D. 612 (E.D. Pa. 1990)

23

Doe v. Carson, Nos. 19-1566/1714 Sixth Circuit May 6, 2020

1, App.A

Doe v. Carson, Nos. 1566/1714 Sixth Circuit July 10, 2020 1-2, App. D
Doe v. Carson, No. l-18-cv-1231 (W.D. Mich. May 3, 2019)

1, App.B

Doe v. Carson, 2019 WL 1981886 (W.D. Mich. Jan. 4, 2019)

1, App.C

Doe v. Colautti, 592 F.2d 704 (3d Cir. 1979)
Doe v. Deschamps, 64 F.R.D. 652 (D. Mont. 1974)
Doe v. Frank, 951 F.2d 320 (11th Cir. 1992)

23
28, 31, 33
23, 31

Doe v. Hartford Life & Casualty Ins. Co., 237 F.R.D. 545 (D.N.J. July
14, 2006)
37
Doe v. Megless, 654 F.3d 404 (3d Cir. 2011)
Doe v. Merton, 219 F.R.D. 387 (E.D. Va. 2004)

23-24, 38
30

Doe v. N. Carolina Cent. Univ., 1999 WL 1939248 (M.D.N.C. Apr. 15,
1999)
30
Doe v. Porter, 370 F.3d 558 (6th Cir. 2004)

32

Doe v. Provident Life & Acc. Ins. Co., 176 F.R.D. 464 (E.D.Pa.1997) 23

Doe v. Sessions, Civil Action No.: 18-0004 (RC) (D.D.C. Sep. 27, 2018)
20

Doe v. Stegall, 653 F.2d 180 (5th Cir. 1981)

32

Doe v. University of Pittsburgh, 2018 WL 3029085 (W.D. Mich. Jan. 12,
2018)
29
Doe v. University of Pittsburgh, 2018 WL 1312219 (W.D. Mich. Mar. 14,
2018)
29-30
G.E.G. v. Shinseki, 2012 WL 381589 (W.D. Mich. Feb. 12, 2012) 28*29
Heller v. Doe, 509 U.S. 312 (1993)

17

In re Anonymous Online Speakers, 661 F.3d 1168 (9th Cir. 2011)

33

In re Lifschutz, 2 Cal. 3d 415 (Cal. 1970)

26

Jaffee v. Redmond, 518 U.S. 1 (1996)

17

Nat’l Aeronautics & Space Admin, v. Nelsen, 562 U.S. 134 (2011) 25
Nixon v. Administrator of General Services, 433 U.S. 425 (1977)

25

Olmstead v. L.C., 527 U.S. 581 (1999)

18

Palmore v. Sidoti, 466 U.S. 429 (1984)

18

Plante v. Gonzalez, 575 F.2d 1119 (5th Cir. 1978)

26

Provident Life & Acc. Ins. Co.,176 F.R.D. 464 (E.D. Pa. Jan. 9, 1997)
38-39
Roe v. Wade, 410 U.S. 113 (1973)

2, 36

Sealed Plaintiff v. Sealed Defendant, 537 F.3d 185 (2d Cir. 2008)

35-36

Signature Management Team LLC v. John Doe, 876 F.3d 831 (6th Cir.
2017)
18-19, 33
Southern Methodist University Ass’n of Women Law Students v. Wynne
& Jaffe, 599 F.2d 707 (5th Cir. 1979)
28, 30-31, 33
Sutton v. United Airlines Inc., 527 U.S. 471 (1999)

24

Toyota Motor Manufacturing, Kentucky, Inc. v. Williams, 534 U.S. 184
(2002)
24
United States v. Westinghouse Elec.Corp., 638 F.2d 570 (3d Cir. 1980)
26

Whalen v. Roe, 429 U.S. 589 (1977)

24

STATUTES AND RULES

5 U.S.C. 552

The Freedom of Information Act (FOIA) 12*13, 27*28

Section 504 of the Rehabilitation Act of 1973
29 U.S.C. 794

11

Non-discrimination under federal grants and programs

29 U.S.C. 794a Remedies and attorney fees for the ADA & Sec. 504 of
the Rehab Act of 1973
(a)(2) Remedies
(b)

Attorney fees

42. U.S.C. §1437a(b)(3)(A) Definition of‘family’ in housing

8, 11
34

42 U.S.C. §1437a(b)(5)(A) Determining Adjusted Income in Sec. 8
housing program
16
42 U.S.C. 1983 Civil Action for the Deprivation of Rights

11, 16*17

42 U.S.C. 2000d et seq. Remedies for Civil Rights law applicable under
29 U.S.C. 794a.
8, 11, App. F

42 U.S.C. 10801 Protection and Advocacy for Individuals with Mental
Illness
11
The Americans with Disabilities Act, 42 U.S.C. 12101 et seq.
42 U.S.C. 12101

Findings and Purpose

(a)

Findings

5

(b)

Purpose

6, 24

42 U.S.C. 12102

Definition of disability

7

& App. E
42 U.S.C. 12131

Definitions

7

42 U.S.C. 12132

Discrimination

7

42 U.S.C. 12133

Enforcement

8

42 U.S.C. 12201

Construction

8

42 U.S.C. 12202

State immunity

9

42 U.S.C. 12203

Prohibition against retaliation and coercion 9

42 U.S.C. 12205

Attorney fees

10

24 CFR §982.303

Giving disabled extra time to find housing

15

28 CFR 35.105

Agency self-evaluation in ADA

10, 17

Federal Rules of Civil Procedure (FRCP)
Rule 5.2(e)(1)

Privacy protection for filings made in the court

(e)

Protective orders

(l)

Require redaction of additional information

13, 34

Rule 10

Form of pleadings

13, 34

Rule 17

Plaintiff & Def.5 Capacity; Public officers

13, 34

(a)

Real party in interest

(3)

Joinder of the real party in interest

& App. H

Notes of Advisory Committee on Rules—1966 Amendment for R. 17
36 &App. H
OTHER
THE HEALTH INSURANCE PORTABILITY AND ACCOUNTABILITY
ACT OF 1996 (HIPAA) Privacy Rule Specific to Mental Illness 12-13,
& App. G
Members of Congress who co-sponsored the Americans with Disabilities
Amendment Act of 2008 (ADAA)
24, Appendix K
Convention on the Rights of Persons with Disabilities (CRPD) 14, 40
Map of signatures and ratifications of CRPD
+App. I & J
Definition of ‘ratify’

App. L

VII.

INDEX OF APPENDICIES

Appendix A

Appellate Court Opinion

Appendix B

District Court Opinion

Appendix C

Magistrate Report and Recommendation

Appendix D

Denial of en banc review by the Sixth circuit court

Appendix E

42 U.S.C. 12102
Definition of Disability under the ADA

Appendix F

42 U.S.C. 2000d et seq.

Title VI of the Civil Rights Act of 1964 Prohibition against
exclusion from participation in, denial of benefits of, and
discrimination under federally assisted programs on ground of
race, color, or national origin (also used in Americans with
Disabilities Act & Amendment & Sec 504 of Americans with
Disabilities Act of 1973)
Appendix G

Appendix H

HIPAA Privacy Rule and Sharing
Information Related to Mental Health (pp. 1-3)

Federal Rule of Civil Procedure 17. Parties

Appendix I

Convention on the Rights of Persons with
Disabilities (CRPD)

Appendix J

Map of Signatures and Ratifications of CRPD
i

Appendix K

List of members of Congress who Co-sponsored
the ADA Amendments Act
,
.J

Appendix L

!

Definition of ratification ;

r.

r

?

Y

r

i.

r:

r

'v

IN THE SUPREME COURT
OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.

IX.

OPINIONS BELOW
The opinion of the court of appeals, Doe v. Carson, Nos. 19-1566/1714 (6th Cir.

May 6, 2020), appears at Appendix A to the petition and is unpublished.
The opinion of the United States district court, Doe v. Carson, Case No. l:18-cv1231 (W.D. Mich. May 3, 2019); 2019 WL 1978428, appears at Appendix B to the
petition and is unpublished.
The report and recommendation of the magistrate regarding anonymity, Doe v.
Carson, Case No. l:18-cv-1231 (W.D. Mich. Jan. 4, 2019) 2019 WL 1981886 is at
j

Appendix C of the petition and is unpublished.

X.

JURISDICTION

A. Timeliness
The date on which the United States court of appeals decided Doe's case was
May 6, 2020. A timely petition for rehearing en banc was denied on July 10, 2020
and a copy of the order denying rehearing appears at Appendix D. This Court
issued an order March 19, 2020 extending the deadline to request certiorari to 150
1

days after denial of a petition to request additional review. Therefore, the last day
for Doe to file her petition is Dec. 7, 2020.

B. Statutory Authority
The jurisdiction of this court is invoked under 28 U.S.C. §1254(1).

C. A Justiciable Controversy
Doe has standing in presenting a justiciable controversy in spite of matters in
her specific case having been resolved.1 There is an exception to the federal rule that
a controversy exist at the review stages and not just at inception of the case,
because matters "capable of repetition, yet evading review" are still matters the
court should resolve. Roe v. Wade, 410 U.S. 113, 125 (1973). Doe began this
litigation due to discrimination under disability laws and the U.S. Constitution by
the federal and state housing agencies wherein Doe participates in the Section 8
Program. Doe no longer has the same issues with these defendants due to having
moved 1,200 miles away. She needs to live in close proximity to one of her children
for emotional and functional support related to her disability. If Doe had not
moved, it's likely none of the problems would have been resolved. Doe and many
other mentally disabled individuals can be in discriminatory situations anytime and
they need a path to recourse which Doe did not have here.
Doe's case is about mental illness and disability information as concerns public
exposure or privacy in litigation by name redaction. Her anonymity motion was
dismissed with no analysis or discussion whatsoever of mental illness, disability, or
2

privacy law under statutory or constitutional law or case law of the US. Supreme
Court. Doe’s courts, like many, conflate the redaction of a personal identifier with
sealing substantive information in the case, so naturally any discussion proceeds off
the mark. Without analysis, deciding that using a real name is in the public interest
requires turning on its head the concept of the best interest of the public. Victims of
discrimination, encompassing many individuals, want the option of bringing their
valid discrimination claims into court—they don’t give a hoot about the specific
identification of Doe. The reasoning being given for the courts’ decisions often
support the opposite of the decisions made. Many courts identify when the
government is a defendant, but most fail to discuss why it matters. In fact, many of
them say, erroneously, that it doesn’t matter. In the Sixth circuit the reasoning
between types of cases, re subject matter, is inconsistent with lessor consideration
given to the privacy of mentally disabled people than to bloggers who are violating
copyright law in postings on the internet. And the bloggers can change their online
name easier than a Doe can change their real name if theirs is exposed and
associated with mental disorders. The U.S. Supreme Court should implement
standards, identify what conditions should have anonymity without litigation
(mental illness, abortion, religion, sex related etc.); what components should be
considered in a decision of situations that are not in the specific ones just identified,
like a requirement to consider laws that exist for the subject matter being
considered.
Most or at least many disabled mentally ill individuals, like Doe, live at poverty
level and cannot afford to pay attorneys. In Michigan, Doe's income was 25% of the
3

median income in her metro area. Now she is at 20% of median income in her new
metro area. As would be expected, most mentally impaired individuals are unable
to pursue a case pro se. If this Court doesn’t accept Doe’s case, it will be difficult for
someone else to get this subject to this level again. Note, Doe does not personally
gain anything from this suit. Her specific case is done. This is being brought on
principle. Even with the reduced requirements for filing a pro se petition, copies for
this petition alone are costing over a couple hundred dollars. Most people at Doe’s
income level would not be able to spend this, like if they had children, if they need
to have a car, and a host of other reasons that could render it virtually impossible.

XI.

CONSTITUTIONAL & STATUTORY PROVISIONS

A.

Constitutional provisions implicating access to redress, the right of privacy

protection, as well as procedural and substantive due process rights and equal
protection guarantees are comprised in this matter. A demand that Doe share
private information regarding her mental health disability and its effects with the
public in order to be accorded recourse against disability discrimination is a
violation of a combination of these.

1. THE FIRST AMENDMENT of the United States, "Congress shall make no
law respecting... the right of the people... to petition the government for redress of
grievances."
2. THE FIFTH AMENDMENT of the United States, "No person shall...be
deprived of life, liberty, or property, without due process of law."
4

3. THE FOURTEENTH AMENDMENT of the United States, Section 1 "(N)or
shall any State ... nor deny to any person within its jurisdiction the equal protection
of the laws."

B.

STATUTORY PROTECTIONS INCLUDE:
1. THE AMERICANS WITH DISABILITIES ACT OF 1990, (ADA) AND ADA

WITH AMENDMENTS ACT OF 2008 (ADAA) 42 U.S.C. Ch. 126 Equal Opportunity
for Individuals with Disabilities in sections 12101 et seq.
42 U.S.C. §12101 Findings and Purpose, (a) Findings The Congress finds
that-- (1) physical or mental disabilities in no way diminish a person's right to fully
participate in all aspects of society, yet many people with physical or mental
disabilities have been precluded from doing so because of discrimination; others who
have a record of a disability or are regarded as having a disability also have been
subjected to discrimination; (2) historically, society has tended to isolate and
segregate individuals with disabilities, and, despite some improvements, such forms
of discrimination against individuals with disabilities continue to be a serious and
pervasive social problem; (3) discrimination against individuals with disabilities
persists in such critical areas as employment, housing, public accommodations,
education, transportation, communication, recreation, institutionalization, health
services, voting, and access to public services; (4) unlike individuals who have
experienced discrimination on the basis of race, color, sex, national origin, religion,
or age, individuals who have experienced discrimination on the basis of disability
have often had no legal recourse to redress such discrimination; (5) individuals
5

with disabilities continually encounter various forms of discrimination, including
outright intentional exclusion, the discriminatory effects of architectural,
transportation, and communication barriers, overprotective rules and policies,
failure to make modifications to existing facilities and practices, exclusionary
qualification standards and criteria, segregation, and relegation to lesser services,
programs, activities, benefits, jobs, or other opportunities; (6) census data, national
polls, and other studies have documented that people with disabilities, as a group,
occupy an inferior status in our society, and are severely disadvantaged socially,
vocationally, economically, and educationally; (7) the Nation's proper goals
regarding individuals with disabilities are to assure equality of opportunity, full
participation, independent living, and economic self-sufficiency for such individuals;
and (8) the continuing existence of unfair and unnecessary discrimination and
prejudice denies people with disabilities the opportunity to compete on an equal
basis and to pursue those opportunities for which our free society is justifiably
famous, and costs the United States billions of dollars in unnecessary expenses
resulting from dependency and non-productivity.
(b) Purpose It is the purpose of this chapter- (1) to provide a clear and
comprehensive national mandate for the elimination of discrimination against
individuals with disabilities; (2) to provide clear, strong, consistent, enforceable
standards addressing discrimination against individuals with disabilities; (3) to
ensure that the Federal Government plays a central role in enforcing the standards
established in this chapter on behalf of individuals with disabilities; and (4) to
invoke the sweep of congressional authority, including the power to enforce the
6

fourteenth amendment and to regulate commerce, in order to address the major
areas of discrimination faced day-to-day by people with disabilities.
42 U.S.C. §12102 Definition of Disability The ADA defines "disability," "with
respect to an individual," as (A) a physical or mental impairment that substantially
limits one or more of the major life activities of such individual; (B) a record of such
an impairment; or (C) being regarded as having such an impairment." Copy of this
section in Appendix E.
Part A-PROHIBITION AGAINST DISCRIMINATION AND OTHER
GENERALLY APPLICABLE PROVISIONS
42 U.S.C. §12131 Definitions As used in this subchapter: (1) Public entity
The term 'public entity' means-(A) any State or local government; (B) any
department, agency, special purpose district, or other instrumentality of a State or
States or local government; and (C) N/A (2) Qualified individual with a disability
means an individual with a disability who, with or without reasonable modifications
to rules, policies, or practices, the removal of architectural, communication, or
transportation barriers, or the provision of auxiliary aids and services, meets the
essential eligibility requirements for the receipt of services or participation in
programs or activities provided by a public entity.
42 U.S.C. §12132 Discrimination Subject to the provisions of this subchapter,
no qualified individual with a disability shall, by reason of such disability, be
excluded from participation in or be denied the benefits of the services, programs, or
activities of a public entity.

7

42 U.S.C. §12133 Enforcement The remedies, procedures, and rights set forth
in section 794a of title 29 shall be the remedies, procedures, and rights to this sub­
chapter provided to any person alleging discrimination on the basis of disability in
violation of section 12132 of this title (Same as under Sec 504 of Rehabilitation Act
of 1973).
29 U.S.C. 794a. Remedies and attorney fees (a)(2) The remedies, procedures,
and rights set forth in title VI of the Civil Rights Act of 1964 (42 U.S.C. 2000d et
seq.) shall be available to any person aggrieved by any act or failure to act by any
recipient [the state program recipient] of Federal assistance or Federal provider of
such assistance under section 794 of this title, (b) In any action or proceeding to en­
force or charge a violation of a provision of this subchapter, the court, in its discre­
tion, may allow the prevailing party, other than the United States, a reasonable at­
torney's fee as part of the costs. Appendix F.
SUBCHAPTER IV-MICELLANEOUS PROVISIONS
§12201 Construction, (a) In general Except as otherwise provided in this
chapter, nothing in this chapter shall be construed to apply a lessor standard than
the standards applied under Title V of the Rehabilitation Act of 1973 (29 U.S.C.
790 et seq.) or the regulations issued by Federal agencies pursuant to such title, (b)
N/A (c) N/A (d) N/A (e) N/A (f) fundamental alteration Nothing in this chapter
alters the provision of section 12182(b)(2)(A)(ii) of this title, specifying that
reasonable modifications in policies, practices, or procedures shall be required,
unless an entity can demonstrate that making such modifications in policies,
8

practices, or procedures, including academic requirements in postsecondary
education, would fundamentally alter the nature of the goods, services, facilities,
privileges, advantages, or accommodations involved, (emphasis provided) (g) N/A
(h) N/A.
42 U.S.C. §12202 State Immunity. A State shall not be immune under the
eleventh amendment to the Constitution of the United States from an action in
Federal or State court of competent jurisdiction for a violation under this chapter,
remedies (including both at law and in equity) are available for such a violation to
the same extent as such remedies are available for such a violation in an action
against any public or private entity other than a State.
42 U.S.C. §12203 Prohibition against retaliation and coercion, (a) Retaliation
No person shall discriminate against any individual because such individual has
opposed any act or practice made unlawful by this chapter or because such
individual made a charge, testified, assisted or participated in any manner in an
investigation, proceeding, or hearing under this chapter, (b) Interference, coercion,
or intimidation It shall be unlawful to coerce, intimidate, threaten, or interfere
with any individual in the exercise or enjoyment of, or on account of his or her
having exercised or enjoyed, or on account of his or her having aided or encouraged
any other individual in the exercise or enjoyment of, any right granted or protected
by this chapter, (c) Remedies and procedures The remedies and procedures
available under sections 12117, 12133, and 12188 of this title shall be available to
aggrieved persons for violations of subsections (a) and (b), with respect to this
subchapter I, subchapter II and subchapter III, respectively.
9

42 U.S.C. §12205 Attorney fees. In any action or administrative proceeding
commenced pursuant to this chapter the court or agency, in its discretion, may
allow the prevailing party, other than the United States, a reasonable attorney's
fee, including litigation expenses, and costs, and the United States shall be liable
for the foregoing the same as a private individual.
28 CFR § 35.105 Self-evaluation.(a) A public entity shall, within one year of
the effective date of this part, evaluate its current services, policies, and practices,
and the effects thereof, that do not or may not meet the requirements of this part
and, to the extent modification of any such services, policies, and practices is re­
quired, the public entity shall proceed to make the necessary modifications.(b) A
public entity shall provide an opportunity to interested persons, including individu­
als with disabilities or organizations representing individuals with disabilities, to
participate in the self-evaluation process by submitting comments.(c) A public en­
tity that employs 50 or more persons shall, for at least three years following comple­
tion of the self-evaluation, maintain on file and make available for public inspectiom(l) A list of the interested persons consulted;(2) A description of areas exam­
ined and any problems identified; and(3) A description of any modifications
made.(d) If a public entity has already complied with the self-evaluation require­
ment of a regulation implementing section 504 of the Rehabilitation Act of 1973,
then the requirements of this section shall apply only to those policies and practices
that were not included in the previous self-evaluation.

10

2. SEC 504 OF THE REHABILITATION ACT OF 1973 Title 29 Labor, Ch.16
Vocational rehabilitation and other rehabilitation services, Subchapter V-Rights
and Advocacy, §794 Nondiscrimination under federal grants and programs, and
§794a, Remedies and attorney fees, which encompasses remedies from the CIVIL
RIGHTS ACT OF 1964 (42 U.S.C. §2000d et seq.) Applicable sections are lengthy
and provided in Appendix F (same as in ADA)

3. 42 U.S.C. §1983 CIVIL ACTION FOR THE DEPRIVATION OF RIGHTS
Every person who, under color of any statute, ordinance, regulation, custom, or
usage, of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer's judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable.

4. 42 U.S.C. Ch. 114 PROTECTION AND ADVOCACY FOR INDIVIDUALS
WITH MENTAL ILLNESS 42 U.S.C. §10801 Congressional Findings and
statement of purposes (a) The Congress finds that-(l) individuals with mental
illness are vulnerable to abuse and serious injury;...(b) The purposes of this chapter
are--(l) to ensure that the rights of individuals with mental illness are protected;
11

and (2) to assist States to establish and operate a protection and advocacy system
for individuals with mental illness which will (A) protect and advocate the rights of
individuals through activities to ensure the enforcement of the Constitution and
Federal and State statutes.

(This statute is primarily concerned with mentally ill

individuals in relation to hospitalization for their condition, but the expressions of
Congress regarding mental illness are still valid.)

5. THE FREEDOM OF INFORMATION ACT (FOIA) Title 5 Government
organization and employees, §552 Public information; agency rules; opinions,
orders, records and proceedings. "§552(a) Each agency shall make available to the
public information as follows:..." (b) This section does not apply to matters that are-(3) specifically exempted from disclosure by statute (other than section 552(b) of this
title), if that statute--(A)(i) requires that the matters be withheld from the public in
such a manner as to leave no discretion on this issue; or (ii) establishes particular
criteria for withholding or refers to particular types of matters to be withheld; and
(B) if enacted after the date of enactment of the OPEN FOIA ACT OF 2009,
specifically cites to this paragraph." THE HEALTH INSURANCE PORTABILITY
AND ACCOUNTABILITY ACT OF 1996 (HIPAA) is a federal law protecting
individuals' health information from dissemination without their knowledge or
permission. It falls into this exception (3). The U.S. Department of Health and
Human Services (HHS) issued the HIPAA Privacy Rule to implement the
requirements of the law. (It was an attachment in the appellate brief.) The agency
further issued specific to mental illness, HIPAA Privacy Rule and Sharing
12

Information Relate to Mental Health. A copy of the first three pages is at Appendix
G. The exposure of the records of individuals by federal agencies also does not apply
to "(6) personnel and medical files and similar files the disclosure of which would
constitute a clearly unwarranted invasion of personal privacy." (emphasis provided)

C.

FEDERAL RULES OF CIVIL PROCEDURE
Rule 5.2 Privacy Protection for Filings Made with the Court (e) Protective orders

(1) require redaction of additional information.
Rule 10.

Form of Pleadings, (a) Caption; Names of Parties. Every pleading

must have a caption with the court's name, a title, a file number, and a Rule 7(a)
[pleadings which are allowed] designation. The title of the complaint must name all
the parties; the title of other pleadings, after naming the first party on each side,
may refer generally to other parties, (emphasis provided)
Rule 17. Plaintiff and Defendant; Capacity; Public Officers, (a) REAL PARTY IN
INTEREST (1) Designation in General. "An action must be prosecuted in the name
of the real party in interest. The following may sue in their own names without
joining the person for whose benefit the action is brought: (A) an executor; (B) an
administrator; (C) a guardian; (D) a bailee; (E) a trustee of an express trust; (F) a
party with whom or in whose name a contract has been made for another's benefit;
and (G) a party authorized by statute. (2) Action in the Name of the United States
for Another's Use or Benefit. When a federal statute provides, an action for
another's use or benefit must be brought in the name of the United States. (3)
Joinder of the Real Party in Interest. The court may not dismiss an action for
13

failure to prosecute in the name of the real party in interest until, after an objection,
a reasonable time has been allowed for the real party in interest to ratify, join, or be
substituted into the action, (emphasis provided) After ratification, joinder, or
substitution, the action proceeds as if it had been originally commenced by the real
party in interest. (Rule 17, including Notes of Advisory Committee on Rules--1966,
which discusses anonymity are in Appendix H)

D.

INTERNATIONAL LAW
Convention on the Rights of Persons with Disabilities, United Nations General

Assembly is at Appendix I with a map of signatories at Appendix J.

XII.

STATEMENT OF THE CASE

Doe is diagnosed with a mood disorder (bi-polar), severe depression and anxiety,
)

attention deficit disorder, and obsessive-compulsive disorder. These manifest in
difficulty functioning in daily life in the 'real' world. Doe is not intellectually
disabled. Doe has a legal background, but knows virtually nothing about litigation,
She got a CALI Award of Excellence in contract law, so she does have some
capability in reading caselaw and statutes during those times she has been able to
read, but she isn’t confident enough to say her work is terrific, but hopefully it’s
okay. In the district court, filings were sloppier because it's very hard for Doe to
organize things and she found writing a complaint for the first time baffling. Doe is
filing pro se under limitations which are most pronounced in administrative and
presentation matters and requests the court to kindly ignore the errors. Example,
14

the cover sheet for Doe’s appellate brief only identified the case and was missing
about everything else. She was embroiled in a confusing paper mess at Fedex most
of the day. They copied some things collated, some not. Some on shiny paper that
were recopied. Alphabetizing cases was very time consuming (she frequently needs
to sing the abc song to remember letter order) and she should never have left
physically putting together her brief on the last day it could be mailed. She sent
another cover separately and it arrived at the court 15 minutes prior to the brief
itself but was filed after it. This is the type of thing people don't understand about
mental disabilities. It’s stupid everyday decision-making and what most people
consider ‘common’ knowledge where Doe fails the most. The nature of limitations is
different for each disabled person. Doe was much more dysfunctional when she first
moved to Michigan.
Doe's case is against the U.S. Dept, of Housing and Urban Development
(HUD) and the Michigan State Housing Development Authority (MSHDA), but
referenced in most filings as ('State'). There are laws giving disabled persons in the
Section 8 housing program extra time to find a place to live when they move if they
have special needs. 24 CFR §982.303. Upon moving to Michigan in 2013, Doe
needed to live in walking distance from her son because she gets critical emotional
and functional assistance from her children being essentially unable to form bonds
with other people and her children understand her. Doe came within days of losing
her housing voucher-and was on the verge of a mental breakdown-because the
agency didn't want to give Doe the amount of time she needed to find a place to live.
When the building sold she that lived in, she was told by the new owner that she
15

would need to move because they intended to renovate the unit. Doe found a place
very close to her son that had low rent and was willing to take a voucher in a
neighborhood where it's very hard to find anything affordable. The State said she
had to wait seven weeks to move and she later found out they were supposed to
have allowed her to move as soon as the new unit was available (it was vacant).
(See, ECF No. 1, Page ID. 10, para.#s 17.5-18) The stress Doe went through over
that was excruciating. She didn't expect the apartment owner to hold the unit that
long and didn't think she was likely to find another suitable place quickly. It was a
miracle that the new place was willing to leave their apartment empty nearly two
months so she didn't lose it.
She found out after a couple years in Michigan that they had not deducted all
her medical expenses in determining her adjusted income from which the amount of
rent she pays is based. The statute says it's "mandatory" for disabled individuals. 42
U.S.C. §1437a(b)(5)(A). They refused to go back and correct their mistakes. The
amounts would have been maybe several hundred dollars but that's a large amount
when you have an extremely low income. There were other things-too many to list.
Doe made extensive attempts to resolve the problems with the State and tried to get
assistance from HUD and DOJ to no avail. Doe filed suit in fall 2018.
The initial complaint of Doe was based on The ADA Amendments Act of 2008
which was passed to restore the intent and protections of the Americans with Disa­
bilities Act. The amended complaint was based on the Due Process Clause of the
Fifth and Fourteenth Amendments and equal protection. And under 42 U.S.C.

16

§1983. These pleadings are so deficient Doe is appalled right now, but with medica­
tion changes, she is somewhat better since a couple years ago, in addition to having
spent a good portion of her time in the last year and a half reading law. Doe also re­
quested to get an attorney and to amend her complaint a second time. These were
denied. She felt she had no chance of learning state law simultaneous with learning
federal litigation, and housing and disability law, so she had to forgo filing any state
law claims. Maybe the procedure in the Code of Federal Regulations in 28 CFR
35.105, that federal agencies are required to police themselves in terms of their suc­
cess following disability law has something to do with some of them having a virtual
indifference to following those laws.

XHI.
A.

REASONS FOR GRANTING THE PETITION
MENTAL ILLNESS AND DISABILITIES ARE PRIVATE ISSUES FOR

WHICH THERE IS GREAT PUBLIC INTEREST IN SEEING STATUTORY AND
CONSTITUTIONAL RIGHTS PROTECTED, BUT LITTLE PUBLIC INTEREST IN
THE IDENTITY OF LITIGANTS.
The Supreme Court has protected the privacy of mentally ill individuals.
"[A]dults previously of sound mental health who are diagnosed as mentally ill may
have a need for privacy that justifies the state in confining a commitment
proceeding [to the smallest group compatible with due process]. Heller v. Doe, 509
U.S. 312 (1993). "Confidential communications in course of diagnosis or treatment
are protected from compelled disclosure under Rule 501 of the Federal Rules of
Evidence." Jaffee v. Redmond, 518 U.S. 1 (1996). "[P]ersons with mental disabilities
17

have been subject to historic mistreatment, indifference, and hostility." Olmstead v.
L.C., 527 U.S. 581, 608 (1999) (Kennedy J. concurring).
Doe’s case is a demonstration of mental illness being looked down upon. As
quoted in Cleburne v. Cleburne Living Center, Inc. 473 U.S. 432, 448 (1985) (over­
turned on other grounds)," ‘Private biases may be outside the reach of law, but the
law cannot, directly or indirectly give their effect.’ Palmore v. Sidoti, 466 U.S. 429,
433 (1984).” Doe thinks that her mental illness was largely a factor in how her case
was more brushed aside than evaluated.
The first line in Doe's complaint titled Summary of this Lawsuit was," Plaintiff,
Jane Doe, filing pro se, is a participant in the Housing Choice Voucher Program
(Section 8), funded by the U.S. Department of Housing and Urban Development
(HUD)...", (emphasis provided). ECF No. 1, PagelD #2. According to the magistrate
in her R&R, adopted by the judge, "Plaintiff alleges violations of the Americans with
Disabilities Act with respect to her attempts to obtain government subsidized
housingAt that point, Doe had filed the complaint, amended complaint, motion for
getting an attorney and amending the complaint again and for permission to
litigate with anonymity. It is not possible to read even a fraction of those without
realizing Doe is already a participant in a housing program. Doe v. Carson, 2019
WL 1981886, *1 (W.D. Mich. Jan. 4, 2019).
The magistrate also states in the R&R, adopted by the judge, "While Plaintiff
repeatedly asserts the conclusion that her free speech rights will be chilled..." Id. In
Doe's brief in her motion for proceeding anonymously, the first section is entitled
Signature Management Team LLC v. John Doe, 876 F.3d 831 (6th Cir. 2017).
18

(centered and in bold type). This case was favorably decided for the anonymous
defendant who was blogging materials in violation of someone else's copyright. Doe
is reviewing this entire case before beginning her discussion of how she sees her
own case in light of Sig. Mgmt. First paragraph is "Facts" (not in bold) where Doe
states, "Although based on the post-decision anonymity of a defendant, the case
Signature Management v. John Doe, 876 F.3d 831 (6th Cir. 2017) has a plethora of
points relevant to the case of a Doe plaintiff as well." ECF No. 12, PagelD# 80.
Second paragraph, still clearly under the Sig. Mgmt case is named "Law." 'The sixth
circuit decided that in light of the important conflicting rights involved, primarily
the first amendment protections of Doe's free speech that could be chilled as a result
of being unmasked" ECF No. 12, PagelD.#80 [The Sixth circuit had not decided
anything in this Jane Doe's case at that point.] Doe continues her discussion of the
Sig. Mgmt case, "D. Presumption in favor of Unmasking" [Doe is using the same
paragraph labels used in the court's opinion.] "The court says that like the general
presumption of open records, there is also a presumption favor of unmasking
anonymous defendants when judgment has been entered for a plaintiff. They say
the courts must consider both the public interest in public records and plaintiffs
need to learn the anonymous defendant's identity to enforce their remedy. 'The
greater a plaintiffs or the public's interest in unmasking a losing Doe defendant’s
identity, the more difficult it will be for the Doe defendant to overcome the
presumption and remain anonymous.' At this point, the court again draws in the
constitutional right to free speech and says even if the wrongful speech is not
protected under the first amendment, the court looks to see if Doe participates in a
19

significant amount of protected speech that would be chilled if his identity were
revealed." ECF No. 12, PagelD # 82-83. And, "A Doe defendant m[a]y rebut the
presumption of openness by showing that he engages in substantial protected
speech that unmasking will chill." Id. at 83. Jane Doe in this case is not the
defendant. At the end of the review of Sig Mgmt, is a paragraph heading
"Discussion of this case." Id. at 84. "Jane Doe in this case sees a number of issues
which overlap this case and the Signature case. Doe in this case is also seeking to
maintain a first amendment right: the right to petition the Government for a
redress of grievances. If a mentally ill person is going to have the right to the
redress of issues, it is imperative that they be able to maintain personal privacy
while pursuing their rights. The public interest in Jane Doe's identity is minimal
and the interest in the subject matter is probably substantial. The public interest in
the rights of the mentally disabled cannot be satisfied if every plaintiff risks
complete humiliation as a condition of maintaining their rights and therefore does
not pursue them. The chill factor will be substantial if mentally ill people have to be
individually identified, like in the free speech rights of anonymous Doe defendants
who want to speak anonymously on the internet. It is the subject matter they are
discussing that is of interest, not the identity of the speaker. Likewise, it is the
rights of mentally disabled persons which would be of interest in this case, not the
identity of Jane Doe." At this point in Doe's brief there is a new case name in bold
that Doe is going to review and discuss, Doe v. Sessions. [Civil Action No. 180004(RC)(D.D.C. Sep. 27, 2018)] Doe doesn't understand how someone could read
Doe's filings and say that she "repeatedly asserts the conclusion that her free speech
20

rights will be chilled..." R&R at *1. It appears that neither the magistrate nor the
judge read what Doe wrote. Doe believes that should have been considered by the
circuit court an abuse of discretion regardless of anything else
A case in the 7th Circuit, Doe v. Blue Cross Blue Shield of Wisconsin, 112 F.3d
869, 872 (7th Cir. 1997) shows a misunderstanding of mental illness and a reason
this Court cannot rely on district and circuit courts to make impartial judgments.
"[T]he fact that a case involves a medical issue is not a sufficient reason for allowing
the use of a fictitious name, even though many people are understandably secretive
about their medical problems. 'John Doe' suffers, or at least from 1989-1991
suffered, from a psychiatric disorder-obsessive compulsive syndrome. This is a
common enough disorder-some would say that most lawyers and judges suffer from
it to a degree-and not such a badge of infamy or humiliation in the modern world
that its presence should be an automatic ground for concealing the identity of a
party to a federal suit. To make it such would be to propagate the view that mental
illness is shameful. Should 'John Doe's' psychiatric records contain material that
would be highly embarrassing to the average person yet somehow pertinent to this
suit and so an appropriate part of the judicial record, the judge could require that
this material be placed under seal." Blue Cross at 872.
A disorder or disability is something that severely impairs your ability to
function in daily life and it's not likely that most lawyers and judges "suffer from it."
To say that is to heavily discount what it means to have a disability. Also, it seems
this judge is going solely on the term OCD, the nomenclature, rather than the
effects of that condition which have rendered a specific person disabled. Howard
21

Hughes is said to have had OCD to a disabling degree and we can probably take
judicial notice of how well that went. Prior to this statement the court does say,
"The motion to proceed in this way was not opposed, and the district court judge
granted it without comment. The judge's action was entirely understandable given
the absence of objection and the sensitivity of psychiatric records." Id. And, "Records
or parts of records are sometimes sealed for good reasons, including the protection
of state secrets, trade secrets, and informers; and fictitious names are allowed when
necessary to protect the privacy of children, rape victims, and other particularly
vulnerable parties or witnesses." Id. This opinion is understood to mean that other
mental disabilities the names of which are seen by society as more socially
unacceptable would be granted identity protection. It should also be noted that
individuals with mental illness have issues and needs regarding discrimination or
accommodations which is not comprised in such a way that they can file a couple of
pages of medical records under seal and have their privacy protected. Doe needs
the emotional and functional support of her children. That isn’t in her medical
records. In this type of case, the entire case is a discussion of mental illness and it’s
disabling effects. The district and circuit courts in Doe’s case failed to understand
that, and they also recommended a seal, but not one that would shield tKe
information adequately.
In Doe's case, the district and circuit court wanted Doe to post her private
information on the Internet by presenting it in court in her real name. The
population of the United States as of July 1, 2019, as estimated by the United
States Census Bureau, is 328,239,523. If we remove persons under the age of 18
22

(22.3%), it's 255,042,109. census.gov/fact/table. This is the number of people the
, courts want to have access to Doe's private information with no protections. You can
redact one word from the case, Doe's name, and the public can see all the messy
detail of the fact situation, and review a thorough examination by the courts of the
issues in the discrimination case. Or you can render mentally disabled individuals
vulnerable to mal treatment if a federal agency doesn't follow the law, because the
cure is worse than the disease.
Some courts already consider mental illness a sufficient reason to grant
anonymity. “Courts have permitted plaintiffs to proceed anonymously in cases
involving mental illness, Doe u. Colautti, 592 F.2d 704 (3d Cir. 1979)” Doe v. Frank,
951 F.2d 320 (11th Cir. 1992). “Examples of areas where courts have allowed
pseudonyms include cases involving ‘abortion, birth control, transsexuality, mental
illness, welfare rights of illegitimate children, AIDS, and homosexuality’.” Doe v.
Megless, 654 F.3d 404, 408 (3d Cir. 2011) (quoting Doe v. Borough of Morrisville,
130 F.R.D. 612, 614 (E.D. Pa. 1990). “Courts within our circuit have been balancing
these competing interests for the last fifteen years without our guidance...They
have primarily relied on a test for the use of pseudonyms set forth in Doe v.
Provident Life andAcc. Ins. Co., 176 F.R.D. 464, 467 (E.D. Pa. 1997). That case set
forth a non-exhaustive list of factors to be weighed both in favor of anonymity, and
also factors that favor the traditional rule of openness.” Megless at 409. “Because
the flyer neither accused Doe of criminal behavior or mental illness, nor disclosed
highly sensitive personal information, he did not demonstrate that disclosing his

23

identity would cause him substantial ‘irreparable harm’.” Megless at 410 (citing
their district court case being appealed).
Congress' position regarding such individuals is clear. The vast majority of the
Congress co-sponsored the Americans with Disabilities Amendment Act of 2008
(ADAA) (See Appendix K) where under Purpose- It is the purpose of this chapter-..." to invoke the sweep of Congressional authority, including the power to enforce
the fourteenth amendment and to regulate commerce, in order to address the major
areas of discrimination faced day-to-day by people with disabilities." 42 U.S.C.
§12101(b)(4) Congress' express motivation for the Americans with Disabilities
Amendments Act (ADAA) which was in response to Sutton v. v. United Air Lines,
Inc., 527 U.S. 471 (1999) and Toyota Motor Manufacturing, Kentucky, Inc. u.
Williams, 534 U.S. 184 (2002). Findings and Purpose of Pub. L. 110-325, (b) (2)-(5)
printed below 42 U.S.C. §12101 (These cases have narrowed the broad scope of
protection intended to be afforded by the ADA thereby eliminating protection for
many individuals whom Congress intended to protect.).
In the vast majority of cases where a government department requires private
information in the function of their work with the public, people are concerned
about providing it because the information could be exposed publicly. But there are
usually privacy protections in place and the question is whether information will
escape those and then be exposed to the public. Whalen v. Roe, 429 U.S. 589, 60102,605 (1977) (The right of the government to collect and use data on Schedule II
drug prescriptions which is personal in character and potentially embarrassing or
harmful if disclosed, is "typically accompanied by a concomitant statutory or
24

regulatory duty to avoid unwarranted disclosures" and further suggest it’s a remote
possibility that a judge wouldn't protect such information); Nixon v. Administrator
of General Services, 433 U.S. 425 (1977) (Significant screening process in statute
that archivists remove personal information from tapes and documents to be kept
by the government); National Aeronautics and Space Administration v. Nelson, 562
U.S. 134, 155 (2011) (Forms for background checks including request for illegal drug
use and counseling as well as open-ended questions to references being objected to
are also subject to substantial protections against disclosure to the public).
In a case involving an individual who had been arrested for a crime, and took two
psychological tests relating to mental illness, plaintiff Borucki, was found competent to stand
trial, but then the criminal charges against him were dropped. The prosecutor, Ryan, held two
press conferences with media during which he ‘openly discussed the contents of the report on
criminal responsibility.’ Borucki v. Ryan, 827 F.2d 836, 837 (1st Cir. 1987). Borucki brought suit
alleging that Ryan’s disclosure of his psychiatric report to the press was a violation of his
constitutional right of privacy. He stated Ryan was not entitled to qualified immunity because the
right of privacy was clearly established. The circuit court held that the privacy right had not
been clearly established “as of the date of Ryan’s alleged actions” which were June 17, 1983.
Borucki v. Ryan, 827 F.2d 836 (1st Cir. 1987). Id. And so Ryan was found to be entitled to
qualified immunity; “Officials can act without fear of harassing litigation only if they reasonably
can anticipate when their conduct may give rise to liability for damages.” Id. This court
thoroughly analyzes the development of privacy law. They state, “While Supreme Court cases
did not clearly establish a right of privacy applicable to the facts of the present case, the Third
and Fifth Circuits had held prior to June 1983 that there is an independent right of confidentiality
25

applicable to personal information contained in medical, financial, and other personal records.”
Id. At 845 (citing United States v. Westinghouse Elec. Corp., 638 F.2d 570 (3d Cir. 1980) and
Plante v. Gonzalez, 575 F.2d 1119, 1132 (5th Cir. 1978)). “Additionally, the Nineth Circuit, in
Caesar v. Mountanos, 542 F.2d 1064, 1067 (9th Cir. 1976), determined that the psychotherapistpatient communications are among the personal areas protected by the right of privacy.” Id. at
846. It also cites In re Lifschutz, 2 Cal. 3d 415 (Cal. 1970) for the proposition that such
communications are not privileged when a patient places his mental or emotional condition in
issue, but otherwise the patient’s interest in keeping communications to therapist confidential
draws support from the constitution. Id.

B.

THE GOVERNMENT AS THE DEFENDANT MATTERS BECAUSE THERE IS A

STRONG PUBLIC POLICY TO EXPOSE WRONGDOING BY GOVERNMENT ENTITIES
BY BRINGING THEIR ACTIVITIES, POLICIES, AND PROCEDURES TO LIGHT.
It can be suggested Doe is putting her mental illness in issue, however, that would not be an
accurate assessment. Defendants are completely aware that Doe is determined by the
Social Security Administration to be disabled, is in all the housing program records
as disabled, and that her doctor had communicated specific accommodation requests
identifying her maladies to them clearly identifying her disability as mental illness,
and they are in fact knowingly dragging her condition into court by denying her
constitutional rights against discrimination. We need to look at substance over
form.
It's important for government agencies to be held accountable. There is a public
value to bringing to light discriminatory activities of a federal agency. If people
26

with mental illness are refused anonymity, they won’t bring suit. The defendants by
forcing this choice on Doe--to release information that would be protected under the
Freedom of Information Act (FOIA) by 5 U.S.C. §552(b)(3) and (6) in a direct request
to the agency, is substantively, a Freedom of Information Act bypass. They are
aware that many people who are mentally ill will not pursue their statutory and
constitutional rights given that choice, so they force individuals to forgo privacy
rights to obtain relief from violations of their constitutional rights. The result is
that federal agencies are not required to follow the Americans with Disabilities Act
(ADA), Americans with Disabilities Amendments Act (ADAA), Section 504 of the
Rehabilitation Act of 1973, and other laws, as concerns mentally disabled
individuals. The reason for the establishment of the Freedom of Information Act
(FOIA) laws was so that federal agencies could not hide their activity from the
public. It was the effort to prevent unlawful activity by government employees.
Doe's underlying case is one of discrimination by federal agencies. Rather than the
agencies being made to expose what they have or have not done to support their
statutory and regulatory responsibilities, Doe has been 'put on trial' to justify
protecting her privacy. Doe is not aware of any of the nine exceptions listed in 5
U.S.C. §552(b) that has not been protected in the courts. But frequently, as in Doe's
case, some courts determine that no privacy is merited in cases protecting medical
information from public view.

27

Note in exception 5 U.S.C. 552(6), even beyond medical files being protected
from exposure, they reference "similar files the disclosure of which would constitute
a clearly unwarranted invasion of personal privacy."
Many courts evaluating anonymity cases take into consideration whether or not
the government is a defendant in the suit. This is not a statutory requirement. It's
taken from the case Southern Methodist University Ass'n of Women Law Students
(SMU) v. Wynne & Jaffe, 599 F.2d 707 (5th Cir. 1979) which is very frequently cited
in courts. The judge in SMU synthesized commonalities from a collection of cases
identified by the judge in Doe v. Deshamps, 64 F.R.D. 652 (D. Mont. 1974), where
anonymity had been granted. "[A] 11 of the plaintiffs previously allowed in other
cases to proceed anonymously were challenging the constitutional, statutory, or
regulatory validity of government activity." SMU at 713. This is relevant to Doe's
case in that the judge deciding Doe's case uses that as a consideration, but she
doesn't understand why having the government as a defendant matters. G.E.G. v.
Shinseki, 2012 WL 381589 (W.D. Mich. Feb. 6, 2012) (Case No. l:10-cv-1124) is an
anonymity case based on mental illness by the same judge, where an individual was
suing the Secretary of Veterans Affairs for his termination as an employee prior to
the end of his probationary status and G.E.G. contended his rights were being
violated re Section 504 of the Rehabilitation Act of 1973 for not being granted
accommodations. The judge states, "Defendant asserts that only factors (1) and
(2) ...even arguably apply in this case, and they do not weigh in favor of allowing
Plaintiff to proceed under a pseudonym. The Court agrees. Plaintiff provides no
persuasive justification under factor (1), a challenge to governmental activity, which
28

Defendant notes, usually applies to cases in which the plaintiff challenges
governmental activity such as a policy or statute." G.E.G. at *3. There was not a
policy or statute requiring the VA to deny an employee accommodations and then
fire him because of his disability. The statement regarding these facts where the
government is the sole defendant "do not weigh in favor of' anonymity is an error.
From a search of a legal database, it does not appear this plaintiff filed suit again
following this in his own name.
With the same judge and magistrate as in Doe's case, Doe v. University of
Pittsburgh, 2018 WL 3029085 (W.D. Mich. Jan. 12, 2018) is not a mental illness
case but is an anonymity case. Doe here is suing the University of Pittsburgh and
some of its employees as individuals. The Magistrate's Report states "While
Plaintiff is suing a state university and several employees thereof, Plaintiff is not
challenging 'governmental activity.' See e.g. G.E.G. v. Shinseki, 2012 WL 381589 at
*2 (W.D. Mich. Feb. 6, 2012) (in rejecting a request to proceed anonymously, the
court noted that "this factor applies to circumstances in which a plaintiff is
'challenging the constitutional, statutory or regulatory validity of government
activity' Here, Plaintiff merely alleges tortious conduct against state employees.
Thus, this factor weighs against Plaintiffs request.") Pittsburgh 2018 WL 3029085
*1. This court citing G.E.G. in 2012 where no cites were provided for a negative
determination doesn't help clarify this determination. The statement from SMU
quoted here doesn't agree with the idea that tortious acts by government employees
are not acts by the government so that they weigh against plaintiffs request for
anonymity being granted. Then in the judge's Opinion and Order in Doe v.
29

Pittsburgh, 2018 WL 1312219 *2 (W.D. Mich. Mar. 14, 2018), "Plaintiff asserts that
it is 'clear' that she is challenging governmental activity in as much as she is
alleging the 'defendants have violated her Constitutional rights and rights that are
secured under federal and state law.' (Objs., ECF No. 51 at PagelD 313-314."...then
the court says, "The distinction drawn by the Magistrate has support in the
caselaw. Courts are generally less likely to grant a plaintiff permission to proceed
anonymously when the plaintiff sues a private individual than when the action is
against a governmental entity 'seeking to have a law or regulation declared invalid.'
Doe v. Merten, 219 F.R.D. 387, 394 (E.D. Va. 2004) (citing Southern Methodist Univ.
Ass'n of Women Law Students v. Wynne & Jaffe, 599 F.2d 707, 713 (5th Cir. 1979)
(explaining that actions 'challenging the constitutional, statutory or regulatory
validity of government activity' generally 'involve no injury to the Government's
reputation')." Pittsburgh, 2018 WL 1312219 *2 'Having a law or regulation declared
invalid' is not in SMU. After the citation the court puts a different statement from
SMU in parentheses, a statement that actually is in SMU, that challenging
government activity is not damaging to its reputation. The court in Pittsburgh, 2018
WL 1312219 *2 continues, "See e.g. Doe v. North Carolina Cent. Univ., No. l:98-cv1095, 1999 WL 1939248 at *4 (M.D.N.C. Apr. 15, 1999) (denying plaintiffs request
to proceed anonymously in a suit against a state university where the plaintiff was
not seeking to have a law or regulation declared invalid.)" In this N. Carolina Cent.
Univ. case, the public university is the only defendant. This case says the
reputation of a public university will be harmed. This case has misinterpreted
SMU.
30

The court in Doe's case does not stand alone in not discussing why the
government was the defendant in all the cases identified in Deshamps. In Doe v.
Frank, 951 F.2d 320 (11th Cir. 1992), Doe had "alleged that he was removed from
employment because of his alcoholism, a physical handicap, in violation of the
Rehabilitation Act of 1973..." Id. at 322. In Frank, "while most of the cases
permitting plaintiffs to proceed anonymously involved actions challenging
government activity..." Id. at 323. The court in SMU actually says that"all the
plaintiffs previously allowed in other cases to proceed anonymously were
challenging the constitutional, statutory or regulatory validity of government
activity. While such suits involve no injury to the Government's 'reputation,' the
mere filing of a civil action against other private parties may cause damage to their
good names and reputation and may also result in economic harm." SMU at 713.
Inaccurately identifying the statement in SMU by saying 'most' of the cases instead
of 'all' is an error that possibly leads to missing the point of the relevance of the
government being the defendant. Frank, "Wynne and Jaffe'[SMU] does not stand,
however, for the proposition that there is more reason to grant a plaintiffs request
for anonymity if the plaintiff is suing the government. Consequently, the fact that
Doe is suing the Postal Service does not weigh in favor of granting Doe's request for
anonymity" Doe v. Frank, 951 F.2d 320, 324 (11th Cir. 1992). But there is more
reason to grant a plaintiffs request for anonymity if the plaintiff is suing the
government. The reputation comment in SMU is a counterpoint to the reasons
about why in suing private individuals there are different concerns. Concluding that

31

suing the Postal Service does not "weigh in favor of' of granting a request for
anonymity is a conclusion for which Doe cannot see the derivation.
The district court in Doe’s case cites the so-called ‘Porter’ factors from the
decision, Doe v. Porter, 370 F.3d 558 (6th Cir. 2004). In all the other cases Doe has
seen use those factors, and many have, no other case that Doe has seen failed to
indicate that they are in fact the three factors identified by the judge in SMU—they
did not label them as their own. The only case cited as authority in Porter is Doe v.
Stegall, 653 F.2d 180 (5th Cir. 1981), a natural decision since it had virtually
identical facts. Stegall discussed how the factors used were identified in SMU. The
courts in Porter and Stegall both found that the issue of religion is private and
individuals can have strong opinions on this issue, and identities should be
protected, and in addition, children were also plaintiffs meriting special protection.
In basing the negative decision on Doe’s case here on Porter, which was based on
Stegall, the district and 6th Circuit courts failed to note that in the case they were
using as authority, it also stated “The equation linking the public’s right to attend
trials and public’s right to know the identity of the parties is not perfectly
symmetrical. The public right to scrutinize governmental functioning...is not so
completely impaired by a grant of anonymity to a party as it is by closure of the trial
itself. Party anonymity does not obstruct the public’s view of the issues joined or the
court’s performance in resolving them. The assurance of fairness preserved by
public presence at a trial is not lost when one party’s cause is pursued under a
fictitious name.” Stegall at 185. Doe’s case was also shot down for not having
included matters of the ‘utmost intimacy’. But Stegall and Porter granted
32

anonymity based on religion being ‘private’ and even SMU, the source of the ‘Porter’
factors describes, “a compelling need to ‘protect privacy in a very private matter’.”
SMU at 713 quoting Doe v. Deshamps—the original source of the cases upon which
the SMU factors were drawn.
Some contrasts in the Signature Mgmt Team v. Doe case (mentioned supra, 876
F.3d 831 (6th Cir. 2017)) and Doe’s case worth noting, “ the ability to speak
anonymously on the Internet promotes the robust exchange of ideas and allows
individuals to express themselves freely without ‘fear of economic or official
retaliation...[or] concern about social ostracism ”Signature Mgmt. at 835-36,
quoting In re Anonymous Online Speakers, 661 F.3d 1168, 1173 (9th Cir. 2011).
There were no concerns about economic or social repercussions in Doe’s case. The
bottom line in Signature Mgmt. was to allow anonymity where “there is no practical
need to unmask the defendant.” Signature Mgmt. at 836. Doe did not see an
indication of what the practical need there was for identifying her. It’s biased that
Doe’s request for anonymity was denied and her case dismissed based on Rule 10(a)
when another Sixth Circuit case, Signature Management v. John Doe, 876 F.3d 831
(6th Cir. 2017) doesn’t even mention Rule 10(a). Further Signature equates name
redaction, the redaction of a personal identifier, to sealing substantive material in a
case and there should be a distinct distinguishing between the two. The only
examination should be if the name matters.

C.

A DOE LITIGANT IS THE REAL PARTY IN INTEREST WITH THE

SUBSTANTIVE RIGHT TO BRING SUIT, AND SO LONG AS THEY ARE
33

IDENTIFIED TO DEFENDANTS OR THE COURT, RES JUDICATA IS
ASSURED.
Doe's case was dismissed based on a violation of Rule 10, not listing a party in
the case. Rule 10, "Form of Pleadings," is the rule that identifies the information to
put on the cover sheet of the complaint and other pleadings in district court. FRCP
Rule 10 doesn’t render a lack of jurisdiction unless the alleged party is a phantom
with no discernable identity. Lumping known litigants with unknown ones is an
error. If a definition of 'parties' is in the rules, and it is in Rule 17 under V.
PARTIES, then in Rule 10, the word 'parties' means parties as defined in Rule 17.
Just like Doe is a disabled 'family' living all by herself in regard to housing law
because one disabled individual is still comprised within the definition of 'family' in
that statute. 42. U.S.C. §1437a(b)(3)(A). Besides which, a protective order allows
for redaction of additional information besides that which is in R. 5.2(a). FRCP
5.2(e)(1). So redacting Doe's name is fine in the rules.
There are numerous situations listed in Rule 17 where it specifies that if you
are in one of these categories, it makes no difference whatsoever if the party in
interest is also the person whose name is on the pleading. FRCP 17(a)(1). Then in
FRCP 17(a)(3) it says "the court may not dismiss an action for failure to prosecute
in the name of the real party in interest until, after an objection, a reasonable time
has been allowed for the real party in interest to ratify, join, or be substituted into
the action." (emphasis provided). How can it be argued that the public needs to
know the real party in interest in some types of suits but not others? The categories
in (a)(1) are most likely because there won't be an issue of res judicata. This is why
34

in (3) the procedure in a suit not prosecuted in the name of the real party in
interest, says after objection, the individual must ratify, join, or be substituted in
the action. Primarily for res judicata. It doesn't say that person's real name must
be listed on the complaint. If you join or are substituted into the action-then your
name is there. The term 'ratify' encompasses ratifying an action taken previously
but to which one cannot be held, as in someone who is underage when signing a
contract and after turning eighteen ratifies a contract they had already signed.
(definition of ratify at Appendix L). It isn’t rational to assert that the word ratify
means the same as substitute or join. If Doe begins exchanging documents that are
in her real name with a defendant and they are reviewing files in her name that are
in the federal agency, as happened in Doe's case, that would appear to be an implied
ratification of her own act in filing which is also comprised in the word ratify. There
are no different procedures indicated here for individuals with mental illness such
that the public has to absolutely know their names. By ratifying, either the court or
defendant(s) know the identity of the plaintiff, and res judicata is achieved.
In Sealed Plaintiff v. Sealed Defendant:
In this case, the District Court's decision rests on just such an error of law. The District
Court appears to have believed itself strictly bound by the requirement of Rule 10(a)
that the title of a complaint include the names of "all the parties," see October 24 Order
at 3,2 and did not balance plaintiffs interest in proceeding anonymously against the in­
terests of defendants and the public. In other words, it did not apply the correct legal
standard to determine whether plaintiffs application to proceed under a pseudonym
should be granted or denied.^ The decision of the District Court was therefore the prod­
uct of legal error. See Zervos, 252 F.3d at 169. Accordingly, we vacate the October 24
Order insofar as it denied plaintiffs application to prosecute her claims under a pseudo­
nym.
[n.] 3. The District Court also relied on the requirement of Rule 17(a) that the "real
party in interest" prosecute the action. It is unclear how the use of a pseudonym
conflicts with this requirement. See Doe v. Del Rio, 241 F.R.D. 154, 156 (S.D.N.Y.2006)
35

("The ... reference [in Rule 17(a)] to the 'name' of the real party in interest does not
concern the formal requirements of captioning, which are governed by Rule 10(a), but
rather ensures that the suing party possess the substantive right being asserted, thus
protecting defendants against indiscriminate litigation by those lacking a real interest."
(citing 6A Charles Alan Wright, Arthur R. Miller & Mary Kay Kane, Federal Practice
and Procedure, § 1541 at 321-22 (2d ed.1990))).
537 F.3d 185, 190-91 (2d Cir. 2008)
If Doe files anything in her real name in court, even if under seal, it can be
unsealed, deliberately or by mistake in the future and then fail to achieve the
purpose of anonymity. It would be impossible to resolve Doe's case without
considering the actions and communications between the parties, which necessarily
means that her real identity is known by them. Doe does not know of any valid
reason defendants should object to anonymity since their defenses in the suit are
unrelated to Doe's name appearing in the case citation. And Doe doesn’t see why it
should be necessary to file anything under seal with the court and worry about the
court inadvertently or deliberately unsealing the document at a later time which
would undo the whole point of being anonymous.
Notes of Advisory Committee on Rules-1966 in Rule 17 at Appendix H is the
only place Doe has seen a specific discussion of anonymity in the rules or statutes.
It is to be prohibited in cases where the actual identity of the party is not known by
the court or opposing side, and it cannot be determined that such an individual ac­
tually exists, a condition not applicable in Doe's case. The Note describes a couple
situations where the concern about litigants using anonymity is where an attorney
can slap "Doe" on a pleading and later find someone to fill in as the plaintiff,
thereby circumventing the statutes of limitations. "Despite the use of the pseudo­
nym, no suggestion is made that Roe is a fictitious person. For the purposes of her
36

case, we accept as true, and established, her existence! her pregnant state, as of the
inception of her suit in March 1970 and as late as May 21 of that year when she
filed an alias affidavit with the district court." Roe v. Wade, 410 U.S. 113, 124
(1973). In order to litigate her case, Doe is required to deal with her files in the
housing program which are in her real name.

D.

NEGATIVE ANONYMITY DECISIONS CAN CAUSE PERMANENT DAM­

AGE, OR FORCE INDIVIDUALS TO KEEP FROM PURSUING VALID CLAIMS
IN COURT.
Too many courts discount the potential negative effects on someone’s career if
they file suit in their real name. In Doe v. Hartford Life and Acc.Ins. Co., “There is
also a risk of stigmatization in Plaintiff’s professional life as a lawyer. Most of
Plaintiff’s coworkers and customers are attorneys who may arguably follow this case
and there is a theoretical possibility that their awareness of his illness will result in
damage to his professional reputation... there is substantial public interest in
ensuring that cases like the Plaintiff’s are adjudicated and the rights of mental illness
sufferers are represented fairly and without the risk of stigmatization. However, this
goal cannot be achieved if litigants suffering from mental illness are chilled from ever
reaching the courthouse steps for fear of repercussions that would ensue if their
condition was made public. Although any litigant runs the risk of public
embarrassment by bringing their case and revealing sensitive facts in a public
courtroom, the situation here is vastly different because Plaintiff’s bipolar condition
is directly tied to the subject matter of the litigation—his mental illness and the
37

disability benefits he allegedly is entitled to as a mental illness sufferer. In this case,
Plaintiff’s situation is analogous to a woman seeking an abortion or a homosexual
fired from his job because of his sexual orientation....allowing Plaintiff to proceed
under a pseudonym will not interfere with the public’s right to follow the proceedings.
The proceedings will be kept open to the public while maintaining the confidentiality
of Plaintiff’s identity.” 237 F.R.D. 545, 550 (D.N.J. July 14, 2006). And in Provident
Life and Acc. Ins. Co., whose factors for analysis were adopted by the Third Circuit
in Megless, “[T]here is substantial public interest in maintaining the confidentiality
of plaintiff’s name. To start, the public has an interest in preventing the
stigmatization of litigants with mental illnesses. Further, plaintiff’s identity should
be protected in order to avoid deterring people with mental illnesses from suing to
vindicate their rights. In this case, plaintiff alleges that defendant unilaterally
terminated his monthly benefits owing under his disability income insurance policy
after improperly concluding that plaintiff’s mental illnesses did not render him
disabled under the terms of the insurance policy. Plaintiff maintains that defendant
terminated these benefits in bad faith. Under the facts of this case, this Court finds
that the public has a strong interest in protecting plaintiff’s identity. A ruling by this
Court, denying plaintiff the use of a pseudonym, may deter other people who are
suffering from mental illnesses from suing in order to vindicate their rights, merely
because they fear that they will be stigmatized in their community if they are forced
to bring suit under their true identity. Indeed, unscrupulous insurance companies
may be encouraged to deny valid claims with the expectation that these individuals
will not pursue their rights in court. Consequently, this factor weighs in favor of
38

allowing plaintiff to proceed in pseudonym...There exists a possibility that plaintiff
may fail to pursue his claim because of potential stigmatization from the community
and damage to his professional reputation. This result would be undesirable because
the state and/or federal government may be required to support the defendant
financially through its welfare programs, despite the fact that defendant may be
liable to plaintiff for monthly benefit payments under the terms of the insurance
policy upon which plaintiff paid premium payments.§If plaintiff’s claim proves to be
meritorious, then defendant will be required to resume paying plaintiff monthly
benefits under the disability income insurance policy. Therefore, the public has an
interest in having plaintiff assert a claim which is potentially meritorious.” 176 F.R.D.
464, 468-69 (E.D. Pa. Jan. 9, 1997).

The district court in Doe’s case had the

information from day one that Doe had 19 years of education and in her district court
filings she noted having spent $100 on a treatise of federal law. In the appellate court
Doe indicated that she had a J.D., but Doe’s career or education should not be the
basis for a decision. Virtually every job requires background checks and having
mental illness on a record will impact not only job possibilities, but possibly rental
options and who knows what else. Doe does not know if advancements in medication
will enable her to be well enough to work again. But she is virtually certain that even
if she became well enough to work, a graphic description of her mental disabilities in
a court record now would preclude her ever getting a job. The 6th Circuit case Detroit
Free Press Inc. v. United States Dept, ofJustice gave an extensive description of how
publishing mug shots would hurt individuals, noting the reach of the internet and
potential harm to careers and reputation. 829 F.3d 478 (6th Cir. 2016). How does that
39

whole line of thinking vanish in Doe’s case? The United Nations Convention on the
Rights of Persons with Disabilities demonstrates an effort worldwide to actively
include and accommodate, and end discrimination of disabled people in light of the
discrimination and hardships they have endured. See also map of signatories.

XIV.

CONCLUSION

The situation of mentally ill individuals needing anonymity to protect their
statutory and constitutional rights is one that does and will re-occur frequently.
Doe prays this Court finds that Doe’s case should be reviewed and standards set by
this Court. The facts in Doe's case should have permitted Doe to file anonymously,
without a court battle. That is a good reason to grant certiorari in this case. It has
been a huge commitment of emotion and endurance for Doe to get to this point, and
it will not be easy, perhaps not even possible for other mentally ill victims of
discrimination to fight this battle. Doe prays this could be the last such case.

Respectfully submitted,

J! n/l)oe,
\

'Due to Doe's move, she no longer needs accommodations. When someone moves they need
either the receiving housing office or the one transferring from to continue to provide
co-pay support for the voucher. The receiving office was not providing support for
incoming transfers. The Michigan program committed to continued support and gave
Doe an extended period of time to find a place to live, so she abandoned a request for co­
pay corrections back to 2014.

40

